<html>
<title> - KEEPING AMERICA SECURE: THE SCIENCE SUPPORTING THE DEVELOPMENT OF THREAT DETECTION TECHNOLOGIES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                        KEEPING AMERICA SECURE:
                         THE SCIENCE SUPPORTING
            THE DEVELOPMENT OF THREAT DETECTION TECHNOLOGIES

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                        THURSDAY, JULY 19, 2012

                               __________

                           Serial No. 112-97

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
75-393                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c0a7b0af80a3b5b3b4a8a5acb0eea3afadee">[email&#160;protected]</a>  

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               DONNA F. EDWARDS, Maryland
W. TODD AKIN, Missouri               BEN R. LUJAN, New Mexico
RANDY NEUGEBAUER, Texas              PAUL D. TONKO, New York
MICHAEL T. McCAUL, Texas             JERRY McNERNEY, California
PAUL C. BROUN, Georgia               TERRI A. SEWELL, Alabama
SANDY ADAMS, Florida                 FREDERICA S. WILSON, Florida
BENJAMIN QUAYLE, Arizona             HANSEN CLARKE, Michigan
CHARLES J. ``CHUCK'' FLEISCHMANN,    SUZANNE BONAMICI, Oregon
    Tennessee                        VACANCY
E. SCOTT RIGELL, Virginia            VACANCY
STEVEN M. PALAZZO, Mississippi       VACANCY
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY


                            C O N T E N T S

                        Thursday, July 19, 2012

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Ralph M. Hall, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     9
    Written Statement............................................    10

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    10
    Written Statement............................................    11

                               Witnesses:

Dr. Richard Cavanagh, Director, Office of Special Programs, 
  National Institute of Standards and Technology
    Oral Statement...............................................    13
    Written Statement............................................    15

Dr. Huban Gowadia, Acting Director, Domestic Nuclear Detection 
  Office, Department of Homeland Security
    Oral Statement...............................................    20
    Written Statement............................................    22

Dr. Anthony Peurrung, Associate Laboratory Director, National 
  Security Directorate, Pacific Northwest National Laboratory
    Oral Statement...............................................    30
    Written Statement............................................    32

Dr. Thomas Peterson, Assistant Director, Directorate for 
  Engineering, National Science Foundation
    Oral Statement...............................................    40
    Written Statement............................................    42

Discussion.......................................................    48

             Appendix I: Answers to Post-Hearing Questions

Dr. Richard Cavanagh, Director, Office of Special Programs, 
  National Institute of Standards and Technology.................    68

Dr. Huban Gowadia, Acting Director, Domestic Nuclear Detection 
  Office, Department of Homeland Security........................    73

Dr. Anthony Peurrung, Associate Laboratory Director, National 
  Security Directorate, Pacific Northwest National Laboratory....    83

Dr. Thomas Peterson, Assistant Director, Directorate for 
  Engineering, National Science Foundation.......................    90

                              Appendix II:

Statement submitted by Jerry Costello , Member, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    96


                        KEEPING AMERICA SECURE:
                         THE SCIENCE SUPPORTING
                           THE DEVELOPMENT OF
                     THREAT DETECTION TECHNOLOGIES

                              ----------                              


                        THURSDAY, JULY 19, 2012

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:04 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Ralph Hall 
[Chairman of the Committee] presiding.

[GRAPHIC] [TIFF OMITTED] T5391.001

[GRAPHIC] [TIFF OMITTED] T5391.002

[GRAPHIC] [TIFF OMITTED] T5391.003

[GRAPHIC] [TIFF OMITTED] T5391.004

[GRAPHIC] [TIFF OMITTED] T5391.005

[GRAPHIC] [TIFF OMITTED] T5391.006

[GRAPHIC] [TIFF OMITTED] T5391.007

    Chairman Hall. The Committee on Science, Space, and 
Technology will come to order, and I say to you, good morning 
and thank you. Welcome to today's hearing entitled ``Keeping 
America Secure: The Science Supporting the Development of 
Threat Detection Technologies.''
    In front of you are packets containing the written 
testimony for all of the Members that are here, biographies and 
Truth in Testimony disclosures for today's witnesses. I will 
recognize myself for five minutes for an opening statement. I 
once again welcome everybody to the hearing.
    The September 11th terrorist attacks forced the American 
public to confront the daily threat of domestic terrorism, and 
advancing threat detection technologies, I think, is one of the 
many ways research and development contributes to keeping our 
country secure. Recognizing the need to respond quickly when a 
potential threat is identified and to counter the growing list 
of threats to our country, the U.S. government and the private 
sector focused research and development activities on the 
detection of explosives, firearms, and dangerous materials 
including chemical, biological, radiological, and nuclear 
matter. Scientific research has advanced the development of 
technologies to protect the Nation, but the rapidly changing 
threats that we face require continued research and development 
to ensure that we keep ahead of our enemies. We recognize that 
the terrorists only need to get it right once to succeed, 
whereas we need to get it right every time to ensure the 
protection of our citizens.
    I think that with highly visible events such as the Olympic 
Games and the Democratic and Republican National Conventions 
occurring this summer, and major sporting events that you all 
are well aware of more so than probably some of us, and because 
of your duties and requirements and your knowledge, and major 
sporting events and concerts are drawing crowds of thousands on 
a weekly basis, there is continued interest in improving 
existing threat detection technologies and advancing new ones.
    Today, we have the opportunity to examine some of the 
research and development activities that the Federal Government 
is undertaking to support the advancement of threat detection 
technology. The research and development activities occurring 
at these federal agencies that we have talked about have the 
potential to both transform and improve threat detection, and 
to create products and technologies that could be beneficial 
for other purposes.
    While I recognize that threat detection is only one piece 
of a much larger system required to combat terrorism, better 
detection does enable better protection for our citizens. As 
the old saying goes, an ounce of prevention is worth a pound of 
cure.
    I look forward to hearing more about the ongoing research 
designed to improve physical threat detection, protect the 
public, and support the development of marketable technologies.
    And I certainly thank our witnesses for your time, the time 
it took you to prepare to come here, the time in your life that 
prepared you to be at that table. You are the ones who write 
the legislation that we pass, and we thank you for your time 
and thank you for your appearance here today and your 
willingness to testify before us.
    I yield back my time.
    [The prepared statement of Mr. Hall follows:]

               Prepared Statement of Chairman Ralph Hall

    Good Morning. I would like to welcome everyone to today's hearing.

    The September 11th terrorist attacks forced the American public to 
confront the daily threat of domestic terrorism. Advancing threat 
detection technologies is one of the many ways research and development 
contributes to keeping America secure. Recognizing the need to respond 
quickly when a potential threat is identified and to counter the 
growing list of threats to our country, the U.S. government and the 
private sector focused research and development activities on the 
detection of explosives, firearms, and dangerous materials including 
chemical, biological, radiological, and nuclear matter. Scientific 
research has advanced the development of technologies to protect the 
Nation, but the rapidly changing threats that we face require continued 
research and development to ensure that we keep ahead of our enemies. 
We recognize that the terrorists only need to get it right once to 
succeed, whereas we need to get it right every time to ensure the 
protection of our citizens.
    In March of this year a Gallup poll \1\ showed that terrorism 
ranked near the bottom of fifteen issues facing the country today-
behind the economy, gas prices, unemployment, drug use, and the 
environment, among others. This may be partly because of the success we 
have had in protecting the Nation since 9/11. Economic issues dominate 
day-to-day concerns right now, so it is easy to become complacent about 
the threat of terrorism. However, with highly visible events such as 
the Olympic Games and the Democratic and Republican National 
Conventions occurring this summer, and major sporting events and 
concerts drawing crowds of thousands on a weekly basis, there is 
continued interest in improving existing threat detection technologies 
and advancing new ones.
---------------------------------------------------------------------------
    \1\ http://www.gallup.com/poll/153485/Economic-Issues-Dominate-
Americans-National-Worries.aspx
---------------------------------------------------------------------------
    Today, we have the opportunity to examine some of the research and 
development activities that the Federal government is undertaking to 
support the advancement of threat detection technologies. The National 
Institute of Standards and Technology, the Domestic Nuclear Detection 
Office, the National Science Foundation, and the Pacific Northwest 
National Laboratory are all investigating different aspects of threat 
detection.
    The research and development activities occurring at these federal 
agencies have the potential to both transform and improve threat 
detection, and to create products and technologies that could be 
beneficial for other purposes, such as nuclear applications for use in 
medicine.
    While I recognize that threat detection is only one piece of a much 
larger system required to combat terrorism, better detection does 
enable better protection for our citizens. As the old saying goes, an 
ounce of prevention is worth a pound of cure.
    I look forward to hearing more about the ongoing research designed 
to improve physical threat detection, protect the public, and support 
the development of marketable technologies.

    Thank you to our witnesses for your willingness to testify before 
us today.

    I yield back my time.

    Chairman Hall. I recognize Mrs. Johnson for an opening 
statement.
    Ms. Johnson. Thank you very much, Mr. Hall, and thank you 
for calling this hearing to examine terrorist threat detection 
technologies. Unfortunately, we live in a world where terrorist 
threats are growing and we have to be prepared to detect and 
respond to these threats.
    I also want to thank our witnesses for being here today. We 
certainly appreciate all that you are doing to advance threat 
detection technology and to keep us safe from those who seek to 
do us harm. Without a doubt, there is a lot of good work going 
on in these areas and you all should be commended for the part 
that you play in that.
    There is no denying, of course, that this sort of good work 
costs money. We are all so painfully aware that in recent 
years, federal budgets have been tight and that funding has 
been constrained. I am interested in hearing today about how 
reduced or stagnant funding levels have hampered or challenged 
your terrorist threat detection activities, if at all. 
Sometimes with a little tighter belt, you can produce better 
work. We will see. I am also interested in learning what steps 
your agencies are taking to leverage the limited resources 
available for these activities, and I am curious about how your 
threat detection research is prioritized, not only within your 
individual agencies, but across the Federal Government. I would 
also like to learn more about how you are partnering with non-
federal entities to ensure that the most promising and most 
impactful research is still being conducted and does not fall 
victim to the budget wars we are waging here in Congress.
    I have had the opportunity to review your written testimony 
and am impressed by the technologies that have been developed 
in recent years. However, for our purposes today, I am most 
interested in learning about the challenges that remain, where 
we ought to be making future investments, and what this 
Committee can do to ensure that the new research is supported. 
The truth is that we must stay at least one step ahead of the 
terrorists and our threat detection research is our first line 
of defense.
    I also understand that there are challenges to deterring 
terrorist threats that go beyond mere detection. We can have 
the best threat protection technologies imaginable, but our 
ability to thwart a terrorist attack rests on our capability to 
interpret that threat and respond to it. I am interested in 
hearing about what is being done throughout the Federal 
Government to ensure that we respond appropriately when a 
threat is detected and how, if at all, your agencies are 
feeding into that process.
    And finally, we cannot ignore the very important role that 
social and behavioral sciences play in helping to keep us safe 
from terrorist attacks. We need to understand more than just 
the bomb or how to detect the bomb. We also need to understand 
the bomb maker. We need to understand not only what motivates 
someone to make or use that bomb, but also what specific groups 
and which specific individuals are most likely to make and 
attack us with that bomb. There is important social and 
behavioral science work going on in this area, including at the 
Department of Homeland Security's Science and Technology 
Directorate, at the National Science Foundation, and through 
the federally supported National Consortium for the Study of 
Terrorism and Responses to Terrorism, and I hope that we will 
have an opportunity to touch on this important research today.
    Again, Mr. Chairman, I thank you for holding the hearing 
and I yield back the balance of my time.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Ranking Member Eddie Bernice Johnson

    Thank you, Chairman Hall, for calling this hearing to examine 
terrorist threat detection technologies. Unfortunately, we live in a 
world where terrorist threats are growing and we have to be prepared to 
detect and respond to these threats.
    I also want to thank our witnesses for being here today. We 
certainly appreciate all that you are doing to advance threat detection 
technology and to keep us safe from those who seek to do us harm. 
Without a doubt, there is a lot of good work going on in this area and 
you all should be commended for your part in that.
    There is no denying, of course, that this sort of good work costs 
money. We are all painfully aware that, in recent years, Federal 
budgets have been tight and that funding has been constrained. I am 
interested in hearing today about how reduced or stagnant funding 
levels have hampered your terrorist threat detection activities, if at 
all.
    I am also interested in learning what steps your agencies are 
taking to leverage the limited resources available to you for these 
activities. I am curious about how your threat detection research is 
prioritized--not only within your individual agency, but also across 
the Federal Government. I would also like to learn more about how you 
are partnering with non-Federal entities to ensure that the most 
promising and most impactful research is still being conducted and does 
not fall victim to the budget wars we are waging here in Congress.
    I have had the opportunity to review your written testimony and am 
impressed by the technologies that have been developed in recent years. 
However, for our purposes today, I am most interested in learning about 
the challenges that remain, where we ought to be making future 
investments, and what this Committee can do to ensure that this new 
research is supported. The truth is that we must stay at least one step 
ahead of the terrorists and our threat detection research is our first 
line of defense.
    I also understand that there are challenges to deterring terrorist 
threats that go beyond mere detection. We can have the best threat 
detection technologies imaginable, but our ability to thwart a 
terrorist attack rests on our capacity to interpret that threat and 
respond to it. I am interested in hearing about what is being done 
throughout the Federal Government to ensure that we respond 
appropriately when a threat is detected and how, if at all, your 
agencies are feeding into that process.
    Finally, we cannot ignore the very important role that social and 
behavioral sciences play in helping to keep us safe from terrorist 
attacks.
    We need to understand more than just the bomb or how to detect the 
bomb. We also need to understand the bomb maker. We need to understand 
not only what motivates someone to make or use that bomb, but also what 
specific groups and which specific individuals are most likely to make 
and attack us with that bomb. There is important social and behavioral 
science work going on in this area, including at the Department of 
Homeland Security's Science and Technology Directorate, at the National 
Science Foundation, and through the federally-supported National 
Consortium for the Study of Terrorism and Responses to Terrorism. I 
hope that we will have an opportunity to touch on this important 
research today.

    Chairman Hall. And I thank you, and I thank you for the 
warnings. As a matter of fact, in Bulgaria just yesterday, I am 
told that Israeli citizens were attacked and seven killed and 
about 30 injured, so we have these things to read about, hear 
about and be warned about. I think our hearing is very timely, 
and I thank you for yielding back.
    If there are Members who wish to submit additional opening 
statements, your statements can be added to the record at this 
time or before we complete our hearing today.
    Now I would like to introduce our panel of witnesses. I 
have already thanked you, and I will do that again. Our first 
witness is Dr. Richard Cavanagh, the Director of the Office of 
Special Programs at the National Institute of Standards and 
Technology. Dr. Cavanagh is responsible for measurement science 
and standards in biology, chemistry and material science.
    Our second witness is Dr. Huban Gowadia, the Acting 
Director for the Domestic Nuclear Detection Office at the 
Office of Homeland Security. In this role, Dr. Gowadia oversees 
integration of interagency efforts for technical and nuclear 
detection and forensics. In addition, she directs the 
Department's radiological and nuclear detection capabilities.
    Our next witness is Dr. Anthony Peurrung, the Associate 
Laboratory Director for the National Security Directorate at 
the Pacific Northwest National Laboratory. Dr. Peurrung has 
been with the National Security Directorate since 1994 during 
which time he has done research on a variety of topics 
including special nuclear material detection.
    Our final witness for today is Dr. Thomas Peterson, the 
Assistant Director for the Directorate for Engineering at the 
National Science Foundation. Dr. Peterson helps guide the 
Directorate in its mission of supporting fundamental and 
transformative research that enhances the competitiveness of 
the United States.
    As our witnesses know, spoken testimony is limited to five 
minutes but we appreciate you so much and thank you so much, we 
are not going to hold you to that. Just do your best, and 
whatever you do, you will not be gaveled down. Nobody has a 
hook that will reach for or anything. Just help us because we 
need you and we appreciate you.
    I now recognize the witnesses to present their testimony. 
Dr. Cavanagh, you are recognized for five minutes to present 
your testimony, sir.

          STATEMENT OF DR. RICHARD CAVANAGH, DIRECTOR,

       OFFICE OF SPECIAL PROGRAMS, NATIONAL INSTITUTE OF

                    STANDARDS AND TECHNOLOGY

    Dr. Cavanagh. Chairman Hall, Ranking Member Johnson and 
Members of the Committee, thank you for the opportunity to 
appear before you today to discuss the important role that the 
Department of Commerce's National Institute of Standards and 
Technology, NIST, plays in threat detection technologies. Today 
we are driven to detect and respond to threats in ways that are 
faster, more definitive and rely on multiple detection 
technologies.
    As new threats emerge, new detection techniques are often 
needed to ensure the safety of the American public. It is in 
this mission space that NIST works to support industry and 
other federal agencies in meeting these measurement and 
standards challenges.
    My testimony will today highlight NIST's role and give 
examples of NIST's work where the application of our 
measurement and standards expertise has helped assure the 
quality and reliability and advance the state-of-the-art 
detection methods used to protect the Nation.
    NIST is responsible for developing and validating 
measurement methods and standards that will allow industry to 
accurately and reproducibly assess their processes and 
products. So when the Department of Homeland Security needed to 
facilitate manufacturer-independent transfer of information 
from radiation measurement instruments for use in homeland 
security applications, as well as for detection of illicit 
trafficking of radioactive materials, they called on NIST, and 
a test and evaluation program for detection equipment was 
established.
    NIST is also working with DHS in the development of 
standards to address the mandate in the SAFE Port Act to 
protect our ports from chemical, biological, nuclear and 
explosive threats. To this end, NIST has applied its experience 
in the development of calibration standards and measurements to 
help DHS and private-sector standards organizations develop a 
test and evaluation program to measure and characterize the 
sensitivity of portal monitors that are used to scan shipping 
containers for radiation and nuclear threats.
    NIST works closely with agencies such as DHS, DOD and DOJ, 
which are responsible for anticipating emerging threats to 
remain attuned to the threats that are on the horizon and 
develop appropriate measurement assurance plans in 
collaboration with those lead agencies. An example of this kind 
of interaction can be seen in the recently released National 
Strategy for Chemical, Biological, Radiological, Nuclear and 
Explosive Standards that was jointly developed with DHS, EPA 
and NIST. In addition, NIST is currently working with DHS to 
develop common test methods for chemical, biological, 
radiological and nuclear commercial off-the-shelf equipment. 
This effort will avoid duplication in testing efforts across 
several government agencies.
    To protect travelers, NIST has worked on standards for 
swipe sampling for trace explosives. An example of this method 
is deployed in airports where objects are swiped with a cloth 
that is then quickly analyzed. Working with DHS, NIST has 
developed standard methods for swipe sampling for biologics 
such as suspicious white powders and for trace explosives. 
These methods have been dramatically improved through 
developments in measurement science.
    NIST continues to make advances in this space, and we are 
currently working on solving the measurement challenges that 
must be overcome to incorporate trace explosive detection 
methods into card readers and to assist local, state and 
federal agencies in the detection and response to chemical and 
biological threats.
    In the wake of the anthrax attacks, the first-responder 
community needed better guidance and protocols to enable 
effective detection of biothreat agents during response and 
decontamination operations. Working with DHS and standards 
organizations, NIST led the effort to develop the standard for 
the collection of suspected biological threat agents and for 
the initial response to suspected threats. Work at NIST is also 
being done in the development of systems to detect trace 
amounts of chemicals or toxins in air and water.
    Standards are important in quantifying the level of 
confidence that can be placed in any data. NIST's focus is on 
the measurements. With deep expertise in dealing with 
measurement repeatability and uncertainty in such wide-ranging 
areas as chemical, nuclear, biological and explosives, we are 
well positioned to support the measurement assurance needs of 
academia, industry and other federal agencies. We do this 
through development of standards, guidance, calibrations and 
reference materials and by providing technical advice when and 
where needed.
    In conclusion, NIST expertise in measurement science and 
standards is playing a recognized role in providing the country 
with robust threat detection capabilities.
    Thank you again for the opportunity to testify today. I 
would be happy to answer any questions you may have.
    [The prepared statement of Dr. Cavanagh follows:]

    [GRAPHIC] [TIFF OMITTED] T5393.008
    
    [GRAPHIC] [TIFF OMITTED] T5393.009
    
    [GRAPHIC] [TIFF OMITTED] T5393.010
    
    [GRAPHIC] [TIFF OMITTED] T5393.011
    
    [GRAPHIC] [TIFF OMITTED] T5393.012
    
    Chairman Hall. I do thank you, and I thank you a good 
opening statement because that indicates to us, I think, the 
importance of your testimony here today, important not just to 
this Committee or to this Congress but to people everywhere. 
You know, we start our weeks off going through detection 
equipment. I go through Dallas, and it seems like they have 
different rules every doggone Monday. I was so pleased when 
they told me last Monday that if I was born before 1982, I 
could keep my shoes on, and you know, you have to be careful. I 
am sure those things are important, but this is what people are 
watching and looking for and complaining about, and I think 
this is probably one of the most important hearings that we are 
going to have to date as far as the rest of the people, all the 
people, a majority of the people are interested in.
    So with that, I recognize Dr. Gowadia to present her 
testimony, and I hope I have been pronouncing your name right.
    Dr. Gowadia. You have, sir. Thank you.
    Chairman Hall. You are recognized for five minutes.

        STATEMENT OF DR. HUBAN GOWADIA, ACTING DIRECTOR,

               DOMESTIC NUCLEAR DETECTION OFFICE,

                DEPARTMENT OF HOMELAND SECURITY

    Dr. Gowadia. Good morning, Chairman Hall, Ranking Member 
Johnson and distinguished Members of the Committee. Thank you 
for this opportunity to discuss advances we have made in 
science supporting nuclear threat detection at the Department 
of Homeland Security's Domestic Nuclear Detection Office. At 
DNDO, with its singular focus on nuclear terrorism, we work 
with federal, state, local, tribal, international and private-
sector partners to reduce the risk by making nuclear terrorism 
a prohibitively difficult undertaking for our adversaries.
    Our ability to counter the nuclear threat is fundamentally 
based on the critical triad of intelligence, law enforcement 
and technology. DNDO contributes to this mission by analyzing 
and coordinating the global nuclear detection architecture and 
implementing its domestic component. We also conduct research, 
development, test and evaluation for threat detection 
technology, acquire and deploy it, and support and assess its 
operation once it is in the field. To maximize our ability to 
detect and interdict nuclear threats, it is imperative that we 
apply these technologies and operations that are driven by 
intelligence indicators and place them in the hands of well-
trained law enforcement and public safety personnel.
    Consequently, we are focusing on an architecture that is 
capable of surging in response to credible information that 
indicates an imminent threat to our national security. This 
means that nuclear detection capabilities must be robust, 
flexible, agile and well-coordinated. We have steadily 
increased our collaboration with the intelligence community. By 
sharing information, personnel and requirements we continue to 
improve our ability to successfully bring technologies to bear 
on the nuclear detection mission.
    The success of our detection architecture is also dependent 
on the work and vigilance of law enforcement and public safety 
personnel who are appropriately trained and well-equipped for 
this mission. Not only is DNDO setting the training standards 
and building the curricula necessary to train frontline 
operators, we support the technological breakthroughs that give 
them the necessary nuclear search and detection tools.
    For example, DNDO led the development of a next-generation 
radioisotope identification device. We worked closely with our 
partners to identify key operational requirements that drove 
the new system design. It is based on an enhanced detection 
material, lanthanum bromide, and coupled with improved 
algorithms. This new hand-held technology is easy to use, 
lightweight and more reliable, and because it has built-in 
calibration and diagnostics, it has a much lower annual 
maintenance cost.
    One of our interagency leadership successes has been our 
response to the helium-3 shortage. Thanks to our research, 
development, test and evaluation efforts, DNDO has proven that 
alternative technologies for neutron detectors are both 
feasible and now available for integration into radiation 
portal monitors. Importantly, due to a collaborative 
government-wide effort, our U.S. strategic reserve of helium-3 
has increased 40 percent since 2009.
    Of course, an adversary can complicate the detection 
mission by shielding or masking the nuclear threat. To address 
shielded nuclear threats, DNDO has several projects underway. 
One, the Shielded Nuclear Alarm Resolution project, seeks to 
develop and characterize advanced active interrogation systems 
with improved ability to uniquely detect special nuclear 
material and to resolve alarms with confidence, even in the 
presence of significant countermeasures. As we implement a more 
agile architecture, we will need cost-effective detectors that 
can be widely deployed and detection systems that can search 
wide areas, even in the most challenging environments such as 
along our land, air and sea borders.
    Such challenges require new materials that can be applied 
in novel concepts of operation. DNDO successes here include 
exploiting emerging detector crystals such as strontium iodide 
and cesium lithium yttrium chloride to improve our detection 
localization and identification of radiation sources.
    DNDO's technology contributions to the global nuclear 
detection architecture start with cutting-edge research, 
predominantly executed through our transformational and applied 
research portfolio which lays the foundation for our 
development mission. This results in a program of progression 
that touches almost every one of DNDO's directorates. Paramount 
to this technical progression is our rigorous test and 
evaluation program that assesses equipment against established 
national and international standards.
    DNDO is able to strengthen the security triad of 
intelligence, law enforcement and technology because of our 
integrated and holistic approach to the nuclear threat 
detection mission. Our disciplined and singular focus on 
nuclear counterterrorism is reinforced by a rigorous systems 
development process and anchored by the skills and knowledge of 
our interagency staff of scientists, engineers, current and 
former law enforcement and military personnel, intelligence 
professionals and policy experts.
    Thank you again for this opportunity to discuss DNDO's 
efforts to protect our Nation from the nuclear threat. I will 
be happy to answer any questions from the committee.
    [The prepared statement of Dr. Gowadia follows:]

    [GRAPHIC] [TIFF OMITTED] T5393.014
    
    [GRAPHIC] [TIFF OMITTED] T5393.015
    
    [GRAPHIC] [TIFF OMITTED] T5393.016
    
    [GRAPHIC] [TIFF OMITTED] T5393.017
    
    [GRAPHIC] [TIFF OMITTED] T5393.018
    
    [GRAPHIC] [TIFF OMITTED] T5393.019
    
    [GRAPHIC] [TIFF OMITTED] T5393.020
    
    [GRAPHIC] [TIFF OMITTED] T5393.021
    
    Chairman Hall. And we thank you, Dr. Gowadia.
    I now recognize Dr. Peurrung for five minutes to present 
his testimony.

               STATEMENT OF DR. ANTHONY PEURRUNG,

                 ASSOCIATE LABORATORY DIRECTOR,

                 NATIONAL SECURITY DIRECTORATE,

             PACIFIC NORTHWEST NATIONAL LABORATORY

    Dr. Peurrung. Chairman Hall, Ranking Member Johnson and 
distinguished Members of the Committee, thank you for the 
opportunity to contribute today. I have devoted much of my 
career to ensuring that science has impact on national security 
missions and therefore it is an honor and a pleasure to testify 
on the critical role of science in the development of threat 
detection technology.
    DOE's science laboratories strive to accelerate the rate of 
innovation, steward unique national capabilities and leverage 
our science base for the benefit of missions such as energy and 
security. Success also requires that we bring together 
university and industrial partners as well as a deep 
understanding of operational missions. The threat detection 
research programs at Pacific Northwest National Laboratory 
nicely illustrate how these objectives can come together.
    We have scientific strengths and historic capabilities with 
roots in the Manhattan Project. In this setting, the lab has 
grown such that roughly half of our activity is focused in 
support of national security. Threat detection research has 
been central in this and remains an area where science plays a 
critical role. I am particularly proud of our work to deliver 
transformational change in the longer run so that grand 
challenges are addressed and our country will be ahead of its 
adversaries.
    I will illustrate these points now with three examples. The 
role of science in the area of ultra-sensitive nuclear 
detection has been particularly rich and distinguished. Over 
four decades our ability to detect trace nuclear materials has 
improved dramatically to the point that we can now measure 
radioactive materials 100 million times less concentrated than 
those naturally present in this room. This effort is supported 
not only by security mission stakeholders but also by DOE's 
Office of Science as part of their fundamental physics 
programs. Shortly after the tragedy of Fukushima, we were able 
to detect the leading edge of a radioactive plume over U.S. 
territory, providing timely and critical information to 
decision makers.
    My second example is detection materials. A helium-3 
shortage recently threatened to diminish our national ability 
to detect nuclear threats. In conjunction with industry and 
several federal agencies, the DOE labs played critical roles in 
driving innovation and evaluating technology so that today 
needs are met with commercial instrumentation that does not 
consume precious helium-3. For the longer run, we are focused 
on the science that will explain how and why radiation 
detection materials function as they do. This will accelerate 
the future discovery of useful new materials.
    Airport security provides my final example. Millimeter wave 
scanning dates back to the 1960s when researchers pioneered the 
development of optical and acoustic holography. While this 
technology was transitioned to commercial production, we retain 
capability that still drives innovation today. In the future, 
we anticipate providing the ability to detect concealed objects 
under a much wider range of scenarios. DHS and DOD, for 
example, have jointly supported a collaboration that promises 
to enable standoff detection of person-borne threats in crowds. 
Our combination of chemical science and explosives detection 
capability are leading to other breakthroughs such as novel 
vapor detection methods and novel X-ray signatures. Our vision 
is for a future with airport security technology that performs 
better and has less operational impact.
    I have attempted to suggest attributes that are common to 
successful threat detection research programs. These include 
integration of world-class scientific capability and applied 
research. There must be effective collaboration with industry 
and mission users to ensure long-term impact. There should be a 
range of federal sponsors who each leverage and build upon what 
has come before.
    Largely because of the strength of our national science 
base and its effective application to threat detection, we 
continue to be global leaders in this area. Ten years ago, a 
National Academy of Sciences report stated: ``strengthening the 
national effort in long-term research that can create new 
solutions should be a cornerstone of the strategy for 
countering terrorism.'' I believe this has occurred with 
considerable benefit to our national security.
    There are challenges as well. Science programs are not 
always easily integrated with threat detection research because 
of cultural differences between science that is open and global 
and programs that are frequently sensitive. The DOE science 
labs are ideally suited to take on this challenge, and I assure 
the Committee that the leadership team at Pacific Northwest 
National Lab will do so.
    I would also add that science center threat detection 
programs are fragile. They can be harmed not only by the 
inevitable fluctuations in funding support but also by rapid 
shifts in the leading threat of the day or by excessively 
short-term objectives. I recommend that strategic stewardship 
of our threat detection research capabilities and the science 
that underlies them remain a high federal priority. I am 
optimistic that the tremendous benefits of science-driven 
innovation will continue to make our Nation safer. We will 
continue to develop threat detection technologies that are more 
effective and operationally attractive. We will retain an 
ability to react rapidly to new changing or elevated threats.
    I thank the Committee again for your time and attention.
    [The prepared statement of Dr. Peurrung follows:]

    [GRAPHIC] [TIFF OMITTED] T5393.022
    
    [GRAPHIC] [TIFF OMITTED] T5393.023
    
    [GRAPHIC] [TIFF OMITTED] T5393.024
    
    [GRAPHIC] [TIFF OMITTED] T5393.025
    
    [GRAPHIC] [TIFF OMITTED] T5393.026
    
    [GRAPHIC] [TIFF OMITTED] T5393.027
    
    [GRAPHIC] [TIFF OMITTED] T5393.028
    
    [GRAPHIC] [TIFF OMITTED] T5393.029
    
    Chairman Hall. And I thank you.
    And at this time I recognize our final witness for today, 
Dr. Peterson.

               STATEMENT OF DR. THOMAS PETERSON,

        ASSISTANT DIRECTOR, DIRECTORATE FOR ENGINEERING,

                  NATIONAL SCIENCE FOUNDATION

    Dr. Peterson. Thank you, Chairman Hall, Ranking Member 
Johnson and other distinguished Members of the Committee. It is 
an honor to be able to testify before you today on this topic 
of threat reduction and detection technologies.
    I would like to briefly describe our efforts in this 
research area, both in terms of the investments made 
exclusively by NSF and in terms of important interagency 
partnerships we have, particularly with the Department of 
Homeland Security.
    The primary mission of the Foundation is to support basic 
research in science and engineering as well as advancements in 
education in STEM disciplines. The NSF has the ability to reach 
deeply into the academic community across a broad range of 
areas to truly understand threat detection technologies 
requires expertise not only in engineering and physical 
sciences but in the life sciences, the social and behavioral 
sciences, and education as well, and NSF serves all these 
communities and our support in these areas taps into these 
particular strengths.
    First, let me talk about our investments within the 
Foundation. A minimum of four directorates are heavily involved 
in advancing our understanding of threat detection and they are 
funded through engineering, computer information science and 
engineering, math and physical sciences, and social, behavioral 
and economic sciences. For example, the resilient and 
sustainable infrastructures cluster within engineering focuses 
on issues of importance in responding to both natural and 
manmade disasters. We support work on sensors and sensor 
networks, the fundamentals of sensor devices and technologies, 
the use of bioelectronics, optical imaging and optical devices 
based on metamaterials, and we support the development of 
mathematical and statistical algorithms and methodologies that 
are critical for these sophisticated sensor systems.
    While much of the work continues to be supported through 
the core programs within the NSF, there have been specialized 
solicitations focusing exclusively on issues related to threat 
detection, and those solicitations have been in partnership 
with the Department of Defense and Department of Homeland 
Security. In collaboration with the DOD, work supported 
primarily by the math and physical sciences and social, 
behavioral and economic sciences directorates have examined the 
social and behavioral foundations of terrorism and the complex 
mathematical and statistical aspects of threat scenario 
analysis.
    Perhaps our most significant contributions to this effort 
have come about through a longstanding and productive 
partnership with DHS. It is a program jointly executed by the 
Domestic Nuclear Detection Office and NSF and it was 
established via a memorandum of understanding in 2007. The 
Academic Research Initiative, as it is called, seeks to advance 
the fundamental knowledge for nuclear detection and related 
sciences. It is about a $60 million effort that has been 
groundbreaking collaboration between NSF and DHS on the 
detection of domestic nuclear threats. Example awards support 
the fundamentals behind methods to detect nuclear materials in 
large cargo containers and low-cost, effective, portable 
particle detectors that are systems to detect highly enriched 
uranium and other specialized nuclear materials.
    Not all research focuses on detector technology. Some 
supported research utilizes a systems approach to design and 
analyze systems for detecting nuclear material at our Nation's 
ports. Collaborators at Texas A&M University conduct research 
involving the integration of social science and policy factors 
into detection systems, and efforts at UT Austin developed a 
new class of stochastic interdiction models on transportation 
networks. A second solicitation involving a DHS partnership, in 
this case, the explosives division of the Science and 
Technology Directorate, focused more specifically on explosives 
and related threats.
    In conclusion, NSF continues to support fundamental 
research and education in science and engineering, particularly 
for areas and ideas generated by the academic community. Our 
ability to bring together a broad range of disciplines within 
that academic community is particularly beneficial in 
addressing complex issues such as the ones we are discussing 
today. By marshaling our expertise and collaboration with the 
strong mission-oriented foci of other agencies such as DHS, we 
have been able to contribute significantly, I believe, to 
advancing fundamental research relating to the detection of 
physical threats to our Nation and its people. In challenging 
budget times, partnerships such as this can often be 
threatened. It is my hope that we can continue to work 
collaboratively with our colleagues in DHS, DNDO and DOD and 
other agencies and to make valuable contributions to knowledge 
in this obviously important area.
    I thank the Chairman and the Committee once again for the 
opportunity to highlight NSF's contributions and I would be 
happy to answer any questions.
    [The prepared statement of Dr. Peterson follows:]

    [GRAPHIC] [TIFF OMITTED] T5393.030
    
    [GRAPHIC] [TIFF OMITTED] T5393.031
    
    [GRAPHIC] [TIFF OMITTED] T5393.032
    
    [GRAPHIC] [TIFF OMITTED] T5393.033
    
    [GRAPHIC] [TIFF OMITTED] T5393.034
    
    [GRAPHIC] [TIFF OMITTED] T5393.035
    
    Chairman Hall. All right, and we thank you, and I thank all 
of you for your testimony. I remind Members that Committee 
rules limit our questioning to five minutes. I certainly will 
stay with the five minutes. At this time I will open the round 
of questions, and I recognize myself for five minutes.
    Secretary Napolitano has asked for a delay in compliance 
with a 2007 requirement that all marine port cargo containers 
be scanned prior to U.S. entry. I think you all are familiar 
with that. And day to day we have complaints all across this 
country as to how they search them, and some question searching 
a 2-year-old, but we have knowledge and you all have the 
knowledge that people have used their children sometimes 
without any care or love of their own children to do harm to 
the enemy, and the enemy is us.
    And I understand that currently less than one percent of 
the cargo is screened, and that is a frightening thing. I am 
aware of the commercially developed technology that exists that 
have the potential to help the government meet this 
requirement, but my question is, is there a way to expedite 
this process to find a solution more quickly? And do you 
anticipate that this problem is going to be solved by 
technologies developed by the government or by the private 
sector? I will let any one of you--start off with you, Dr. 
Cavanagh, if you would like to answer that. Go ahead and turn 
your microphone on.
    Dr. Cavanagh. I will get this straightened out, the high 
technology.
    I don't believe NIST has a contribution to make to this 
question. I think my colleagues are better prepared to answer 
that.
    Chairman Hall. Okay. We gave you a chance.
    Dr. Gowadia. Chairman Hall, probably the best part of DHS 
to answer to this question is probably our partners our Customs 
and Border Protection and our policy directorate. I do know 
that we did a pilot, the notion of 100 percent scanning 
overseas and there were some significant challenges that were 
predominantly diplomatic challenges and some pushback from 
international trade and possibly the need for border 
reconfigurations should reciprocity be required of us. I do 
believe that there are some technologies available for scanning 
but scanning of cargo rapidly and efficiently continues to be a 
bit of a challenge for us. So I think that is about as far as I 
can go, and I think it would be a question best answered by the 
Department itself.
    Chairman Hall. Okay. And I thank you for that.
    Dr. Peurrung. So I have personally been to foreign ports 
and observed their operations largely in connection with our 
laboratory's work for the NNSA's programs that involve global 
security reduction, second line of defense, those kinds of 
programs. It is clearly a significant challenge, what you 
pointed out. I would only say that the laboratories are working 
on advanced technology that should have an impact in the long 
run. This is one of these hard problems that calls for 
transformational technology. I can't promise anything in the 
extremely short-term future but there is promise in the long 
term.
    Chairman Hall. All right, sir. Do you have anything to add 
to it?
    Dr. Peterson. No, I don't think NSF would have a specific 
contribution in this area.
    Chairman Hall. Okay. I still have time to ask another 
question.
    I hate to keep going back to the airports, but that is the 
connection I have with the searches and the complaints are 
based on things that happen at different airports, and the 
public is probably most aware of threat detection technology at 
the airport because people are flying right, left and sideways, 
and I guess to what extent is threat detection today going on 
behind the scenes and how is threat detection research and 
development balanced between detecting materials carried by 
individuals and detecting materials in cargo? Is there anyone 
here that feels that they can give me an answer to that?
    Dr. Gowadia. I will take a small shot at it.
    Chairman Hall. I am glad they brought you.
    Dr. Gowadia. Thank you, sir.
    Chairman Hall. I am going to tell you a story about 
searches too in just a moment when we have a little more time. 
Go ahead.
    Dr. Gowadia. I look forward to that.
    At DNDO, we have worked very closely with our partners at 
the Transportation Security Administration. Every one of their 
VIPR teams, their visible--I should have this acronym down but 
I don't. But their VIPER teams are equipped with rad-nuke 
detection equipment and they are available to enter not just 
into the airport system but also into the other transportation 
modes domestically. So from a rad-nuke perspective, yes, we do 
work with TSA on that count, and we of course do work with our 
Customs and Border Protection colleagues to deploy detectors in 
air cargo.
    Chairman Hall. And I thank you. I yield back my time.
    I recognize Ms. Johnson for her five minutes.
    Ms. Johnson. Thank you very much.
    You know, apparently we are doing a pretty good job since 
we have not faced any real disaster since 2001, but I still am 
very concerned about the behavioral science because like Mr. 
Hall, much of my experience has been in airports, and there are 
times when I see people who look the least interested or able 
to be a threat--or just sometimes irritated to death by TSA. 
So, I wonder whether or not there is some training that would 
give the skills or encourage or at least alert, the employees 
of the skills to look for behaviorally.
    There are times when--we travel very often, weekly, going 
back and forth, and many times we know, we get to know the 
people who are there, and yet there is still an overabundance 
of checking, and they have tried many times to do alternative 
ways for frequent travelers and what have you, and I guess what 
I need to understand is, what technologies or skill bases are 
being used to detect behavioral changes, or observations that 
can go along with the technology that would put a little bit of 
common sense in some of it.
    Dr. Peurrung. Well, what I would say in response to that 
question, Ranking Member Johnson, is that it has long been 
known that the skill of the operators of the technology and the 
skill of the many professionals that are involved in security 
operations in airports and other venues must be a critical part 
of any technology system. They must be engaged in a technology 
development process. At the end of the day, the technology is 
valuable but it is their human skill. I am agreeing with you 
that it has to be integrated with that system. That has been 
known for a long time. I am not sure other than that that I 
have a specific answer to your question.
    Ms. Johnson. Thank you.
    Dr. Peterson, in your testimony that you submitted, you 
mentioned that the National Science Foundation award to the 
University of Texas at Dallas on the substantive expertise, 
strategic analysis and behavioral foundations of terrorism, and 
you gave heard my previous question. I would like to know what 
might be the expectations or what directions are you expecting 
of that research?
    Dr. Peterson. Well, I think I probably couldn't comment 
very specifically on exactly that particular program in terms 
of the details but I can say, as I mentioned in my testimony, 
that it is quite clear that these kinds of challenges involve 
not only scientific and engineering challenges but clear issues 
related to social, behavioral and economic sciences. One of the 
advantages that I think we have at the National Science 
Foundation is the ability to reach in and to establish and 
encourage and support partnerships across not only the 
technical areas, the science and the engineering areas but the 
social science and behavioral science areas. The one example 
that you have of how engineers and scientists have collaborated 
with the social sciences working in this.
    So obviously, we don't have, you know, a whole lot of 
direct expertise at the back end of these processes, that is, 
knowing exactly the specifics of TSA protocols and so forth, 
but I think we are conducting a fair amount of research at the 
front end to understand more clearly how the social aspects 
play a role in the scientific and technical aspects as well.
    Ms. Johnson. Thank you very much.
    I yield back, Mr. Chairman.
    Chairman Hall. The gentlelady yields back.
    I recognize Ms. Biggert, the gentlelady from Illinois, for 
five minutes, and thank you, Madam, for staying within your 
five minutes.
    Mrs. Biggert. Thank you, Mr. Chairman.
    Dr. Peurrung, how are the National Labs supporting industry 
advancements in threat detection?
    Dr. Peurrung. The National Labs are a resource to industry. 
We are a partner to industry. There are times when industry--
there are many times when industry is the absolutely, you know, 
central role in developing threat detection technology but 
there may be operational capabilities that they may lack. There 
may be sort of scientific or technological breadth that they 
may lack so there are many times when a partnership between a 
laboratory and industry is warranted. The laboratories have no 
interest in competing with industry, no interest in 
manufacturing things as a general rule, and therefore, you 
know, as the technologies mature, we often start looking to 
industry, American industry, as a way to hand that off and make 
that a win. Also, industry can provide the sustaining 
capability in the long run, again, as I said in my testimony, 
to ensure impact.
    Mrs. Biggert. Do the industries--or how often do they come 
to you to conduct work for them, or vice versa, how many times 
do you go to the industry?
    Dr. Peurrung. It is a fairly frequent thing both ways.
    Mrs. Biggert. Then Dr. Gowadia, it seems like a lot of the 
Domestic Nuclear Detection Office work is coordinated with 
other nations. How does the U.S. research and development in 
nuclear threat detection compare to other nations?
    Dr. Gowadia. I have to say we take the lead on a lot of 
things. For instance, in the Global Initiative to Counter 
Nuclear Terrorism, which is a partnership between the United 
States and Russia, we certainly lead the efforts to provide 
national architectures, to provide best practices for nation-
states to provide their own--to develop and implement their own 
capabilities and strengths, not just through the detection 
mission but also in the nuclear technical forensics mission.
    Mrs. Biggert. Thank you.
    Then just for anybody, how is the facial recognition 
technology being integrated into the threat detection, if at 
all? Is that being used?
    Dr. Peterson. Maybe I could just give one very quick 
example.
    Mrs. Biggert. Dr. Peterson, yes.
    Dr. Peterson. And this is also related to the question of 
interacting with industry. We have a number of programs within 
the Foundation that are center programs that involve 
collaborations not only with universities but also with 
industry. One example of one of our industry-university 
cooperative research centers, which is housed at West Virginia 
University, looks at biometric systems trying to address and 
focus on this particular issue that you are asking about. That 
is just one example of universities and industry working 
together.
    Mrs. Biggert. Thank you.
    Then research and development seems to be so important to 
everyone, and I think there are a lot of collaborative projects 
going on, but is there something that is unique contribution to 
the threat detection research and development in your agency? 
Maybe Dr. Cavanagh, is it something unique?
    Dr. Cavanagh. We have been involved in developing a 
strategy for the standards that are needed across the board but 
we don't do that in isolation. We do that very closely with 
other agencies. I don't think within our agency we have a 
standalone program to speak to.
    Ms. Biggert. Is there anybody that does?
    Dr. Gowadia. I guess the Domestic Nuclear Detection Office 
actually is a rather unique construct insofar as we have a 
singular focus on the nuclear threat and we integrate efforts 
not just in research and development but all the way from the 
planning and the strategic, research, development, test and 
evaluation, putting detectors in the field, supporting the 
detectors once they are in the field. So we do have this unique 
larger breadth that makes sure that the research and 
development is well balanced and we don't sacrifice future for 
present.
    Mrs. Biggert. Going back to our work with Russia, and 
certainly there is always--there has been right now to reduce 
all of the nuclear weapons in both countries and to do that. 
Does that have anything to do with the detection?
    Dr. Peurrung. Well, that effort is part of the overall 
multilayered approach to global security. If you can catch the 
material at its origin, that is one of the easiest steps in the 
overall process.
    Mrs. Biggert. Thank you very much.
    I yield back.
    Chairman Hall. I thank you.
    And the Chair now recognizes the gentlelady from Maryland, 
Ms. Edwards, for around five minutes.
    Ms. Edwards. Thank you, Mr. Chairman, and thank you very 
much to our witnesses.
    I mean, I do think, as the Chairman and Ranking Member have 
indicated, the challenges that we face--and we keep describing 
it as a post-9/11 world but this is actually just the world 
that we are going to live in--and that we have lived in, and, 
you know, they are unique and they are great. But it does seem 
to me that even, you know, looking at the news of the tragedy 
in Bulgaria yesterday, that the threats are always changing, 
there are new methods that are being employed, and a lot of 
what we see currently is not sort of the high-tech stuff, it is 
the low-tech stuff. It involves behavior and analyzing human 
behavior and looking at the dynamics of, you know, sort of 
culture and people and those sort of things. And yet in this 
environment of budget constraints, it seems that a lot of our 
resources, because it is expensive, goes to the nature of the 
really big threats that are high-tech, that require a lot more 
sophistication in terms of research and analysis. And so I 
wonder how you prioritize in this kind of constrained fiscal 
environment, where you place emphasis in terms of research. I 
think about the Center of Excellence at the University of 
Maryland and the START program--which I think is really, you 
know, a useful way to begin to analyze some of the, you know, 
globally what is happening on that more behavioral human 
front--but it is not, you know, it requires obviously high-tech 
data and research, but it is looking at a whole bunch of things 
that are not the kind of nuclear and chemical and biological 
threats that we have spent a lot of time today talking about.
    And so I wonder, particularly from NIST and DHS, if you can 
give us a sense of what you can do with constrained budgets to 
place priorities where we see most of the threat.
    Dr. Gowadia. If it is okay, we will go with DHS first on 
that answer. When it comes to the behavioral aspects, at DNDO 
in particular, we are beginning to look at deterrents theory 
and analysis. And this is one of the projects that we would 
have liked to work with our partners at NSF this year, but had 
to be delayed on account of some of the budget cuts until next 
year.
    But I would like to draw you back to something I mentioned 
in my oral testimony is--we do not look at this problem 
singularly from the lens of technology. It is close coupled to 
intelligence information and law enforcement skills. So we are 
able to bring our detectors to bear, search for nuclear 
material and weapons--when we have credible information. We are 
able to leverage not just the technology element, but knowing 
that the intelligence community will give us some information. 
And I cannot stress the invaluable law enforcement skills that 
are honed day in and day out in our partners.
    Dr. Cavanagh. From a NIST perspective, most of what we 
bring is measurement science and physical standards and 
calibrations, and when we get guidance from an agency like 
DNDO--where there is a need for such metrology support--
touching into the social sciences I think we would be 
responsive but we are not in a very good position to take a 
lead on that.
    Ms. Edwards. Hasn't DNDO faced about 38 percent in cuts 
from last fiscal year to the current fiscal year? I mean, I 
don't know what you do when your budget is cut 38 percent and 
you are supposed to figure out how to do all of this research.
    Dr. Gowadia. Well, one of the things we tried to do was to 
sort of stretch out and bridge programs as best we could. The 
President's 2013 budget request does try to restore our 
research and development portfolio back to a healthy level. We 
took actually the predominant cut in our long-term research 
program, and so again, one of our extremely powerful programs, 
our academic research initiative, bore some of the brunt and we 
had to diminish our ability to support students, almost 40 of 
them this year. That was hard.
    Ms. Edwards. Well, I hope we are going to take a look at 
the vulnerability that we put ourselves in when we make cuts 
like that--that tend to be across the board but actually go to 
the thing that will most enable us to analyze threats, detect 
them, and prevent them in the future, and with that, I yield.
    Chairman Hall. I thank the gentlelady, and I recognize the 
gentleman from Illinois, Mr. Hultgren, for five minutes.
    Mr. Hultgren. Thank you so much. Thank you all for being 
here too. I really appreciate the work that you are doing. This 
is a very important topic for us to be discussing, and I think 
it is a really important intersection as well for us to be 
talking about how science is important to our safety right now, 
so thank you so much.
    A couple questions I have just to see if any of you have 
any thoughts on this. But I wonder how the technologies we are 
discussing today work within the wider systems approach to 
protecting the public from dangerous materials, and I wonder 
also how are the technology end-users and screeners involved in 
the development processes?
    Dr. Peurrung. So when a question comes up about how the 
technologies work in the wider system perspective, that makes 
me think of again the point that mission-user input, early in 
the process mission-user engagement is absolutely critical. Of 
course, they should be setting the requirements, but beyond 
that, they should be providing feedback to the technology 
developers and the scientists at every stage of the process, if 
possible, because all too many good technologies struggle when 
it comes to the point of being deployed into the field.
    Early in my career when I was a researcher, I learned early 
on that a technology in the field could have two, maybe three 
lights on it. It could have a red light, fail; it could have a 
green light, pass; and maybe a yellow light to say something 
else is wrong with the system, and that is a real shock to a 
Ph.D. researcher who has come out of school and is used to 
hundreds of knobs and dials. So that is an important thing to 
get right from the beginning.
    Dr. Gowadia. Well, at DNDO, sir, we have what we call our 
solution development process, and it is a rather rigorous 
process that brings the operators in, as Dr. Peurrung just 
mentioned, early on to help define not just the mission need 
but the early requirements, et cetera. We use their input all 
the way through. They are part of the test program. In fact, 
they are beginning to move further and further down into our 
science elements now where advanced technology demonstrations, 
we are bringing the users in, getting feedback and doing more 
research before we advance the technologies so we know that we 
are putting technology out that will meet their needs and 
building collaboration with them.
    Mr. Hultgren. Can you give us something a little bit more 
specific? And the Chairman referenced the travel that we all do 
and we are back and forth every single week pretty much out 
here, and one of the things I have seen both here in DC. and 
even earlier in O'Hare where I travel through is the expansion 
of the whole-body imaging systems that they are using, and I 
just personally feel a little uncomfortable with that. It 
struck me, my wife and I traveled recently, and I felt very 
uncomfortable of having my wife go through that. I hear from 
other people as well, just some privacy concerns, and I feel 
like this is an ongoing challenge that we have is, we have got 
technology but we also have a commitment to privacy and 
respecting privacy. On top of that as well is just safety--
these are X-rays still and if you are going through every 
single week, a couple times a week, I know it is very small 
impact but if there is susceptibility to some of that 
radiation, is there a problem there? So I guess I would just 
ask you quickly if you could talk a little bit more about this 
technology. Do you feel like the privacy concerns have been 
adequately addressed, or could more be done to ease these 
concerns so that we are doing everything we can to have safety 
but at the same time protect privacy?
    Dr. Peurrung. I don't know that I can personally offer 
anything on finding the right balance between privacy concerns 
and security concerns. As the technology developers, 
unsurprisingly, our goal is to deliver the best possible system 
from a technical point of view, and we did that, and before 9/
11 there were actually foreign deployments of that system by 
other governments who had far less concern for privacy. After 
9/11, of course, the equation changed, but I agree with the 
premise of your question which is that privacy is a significant 
issue. There certainly are ways to address it but finding that 
right balance is, I am afraid, not appropriate for a national 
laboratory to comment on.
    Dr. Gowadia. Again, this is really for TSA and Science and 
Technology to respond to, so I apologize, sir. I don't have a 
clear answer for you today.
    Mr. Hultgren. I think one of our challenges is getting 
answers from TSA as well and having them be a part of our 
discussions. I am pleased to serve on this Committee. I also 
serve on the Transportation Committee and the Aviation 
Subcommittee, and it has been one of our great frustrations is 
to try and have them be a part of this discussion so we can 
make plans. So I know the Chairman has been frustrated with 
that and the chairman of the Transportation Committee has been 
frustrated as well. So these are important. I understand and 
respect your point of view as well, that your charge is to 
create the best technology available. It is really our 
responsibility to be that balancing agent, and when we don't 
have all the information, it is very, very difficult for us to 
do our job there of protecting those previously concerns and 
security concerns and struggling to find that balance. So I 
hope TSA will be more engaged in this process and be more 
helpful.
    My time is up. Chairman, thank you so much. I yield back.
    Chairman Hall. And I thank you.
    The Chair recognizes Mr. McNerney from California for five 
minutes.
    Mr. McNerney. Thank you, Mr. Chairman.
    Mr. Peurrung, about helium-3, I would just like to get a 
basic idea how that works. Does the gamma radiation make that 
nucleus unstable, which is easy to detect?
    Dr. Peurrung. So a helium-3 neutron detector works because 
the neutron, once it has been slowed by a process called 
moderation, interacts with that helium-3 nucleus. It has an 
exceptionally high propensity to have that interaction. That is 
why helium-3 is special. And that releases a large amount of 
energy that can be deposited in a very short spatial distance. 
That is a unique thing, and that is how a helium-3 tube, we 
call it, works. There are alternate technologies as we, both 
Dr. Gowadia and I, described in our testimony, that work 
through fundamentally the same physics. They just use different 
materials that are non-gaseous. Helium-3 is a gas, which is why 
it was along with something called a boron trifluoride tube 
that some of the earliest technologies in neutron detection.
    Mr. McNerney. Thank you.
    Dr. Cavanagh, would you discuss the state of standards for 
nuclear threat detection? Where are we with the creation of the 
standards for the equipment or testing?
    Dr. Cavanagh. In terms of testing for nuclear materials, we 
have worked with DNDO to set up something like the National 
Voluntary Laboratory Accreditation Program so industry and 
detector providers for nuclear detectors can have those 
detectors evaluated and their performance ascertained by an 
independent party. So some of that is documentary standards. 
Some of those are calibration standards. Some of those are 
performance standards.
    Mr. McNerney. Are standards being developed now for testing 
or equipment for nuclear threat detection?
    Dr. Cavanagh. Some of the standards that are in place are 
public standards. Some of the standards are more sensitive and 
they are still being developed to be more specific in terms of 
requirements.
    Mr. McNerney. Thank you.
    Dr. Gowadia, how imminent is the nuclear terrorist threat 
in this country?
    Dr. Gowadia. That is a hard question to answer directly. 
What I will tell you is, we look at the threat from start to 
finish. So we look the availability of materials, terrorist-
expressed intent, couple that with expertise from the National 
Labs and what they know about how those materials can be 
fashioned into a weapon or a more imminent threat, and then we 
analyze our architecture all the way from source to target and 
see what capabilities we have defensively along the way. That 
allows us to prioritize our efforts and drives our mission. So 
it is a risk-based approach that we take based on all we hear 
from the intelligence community and from the science world.
    Mr. McNerney. So how--what kind of cooperation are we 
getting from our international partners? I mean, it seems the 
best place to stop a nuclear device from entering our port is 
to stop it before it leaves the port of origin. Are we having a 
good amount of cooperation with other nations in terms of 
developing techniques to make that a reality?
    Dr. Gowadia. So we do work within not just the IAEA 
construct, but also the State Department--the global initiative 
construct--to actually work with nation-states to begin to give 
them best practices on securing their materials. So we are 
further back in the chain, not just starting at the ports. We 
look right where the material is. And the DOE certainly--and 
Dr. Peurrung could probably speak to this--has a lot of 
programs overseas that look at essentially the first line of 
defense on how can the material not leave the foreign nations 
on its way here.
    Mr. McNerney. Are we getting good cooperation from those 
nations?
    Dr. Gowadia. In the global initiative, yes, we are. We 
have--and the IAEA in particular--has been rather a champion of 
our best practices.
    Mr. McNerney. Dr. Peurrung?
    Dr. Peurrung. Yeah, my laboratory worked in over 110 
countries in a recent fiscal year and that is largely the 
result of NNSA international--we call them international 
deployment programs--and I would say yes. Of course there are 
degrees to this, but there is a lot of great cooperation from 
our international partners.
    Mr. McNerney. Thank you.
    Dr. Peterson, one last question. Do you believe that the 
federal agencies are using research findings as they become 
available, or is there a huge lag in deploying technology that 
is known from academic research?
    Dr. Peterson. Well, I think there are certainly 
opportunities to better the so-called lab-to-marketplace 
transition, and as you probably know, there are new programs at 
the National Science Foundation and in other federal agencies 
that are trying to address that particular issue. I do think it 
is important in this issue, as well as others, to have strong 
research ties to industry and to not only develop what people 
would call applied research portfolios based on that, but also 
to have their basic research and fundamental research 
activities be integrated and tied to potential applications. So 
I think we have tried to address those issues in different ways 
and I do think it is important, yes.
    Mr. McNerney. Thank you. Mr. Chairman, I yield back.
    Chairman Hall. And I thank you and I recognize Dr. Cravaack 
from Minnesota, five minutes.
    Mr. Cravaack. I think that is above my pay grade, sir, but 
I will take it. Thank you.
    Thank you to a very distinguished panel for being here 
today. I appreciate all that you are doing, and I have just a 
small smidgen of probably what you are talking about, so I 
appreciate everything that you are doing for us. But one of the 
things I do know a little bit about is education, and Dr. 
Gowadia, in referencing your testimony, it is obvious the types 
of research that you perform in the division of mathematical 
sciences necessitates a strong STEM educational background with 
people that you work with. Do you find that you have enough 
qualified STEM-educated Americans to produce the types of 
mathematical research, algorithms, statistical methodology to 
develop the new threat technologies that you are speaking 
about?
    Dr. Gowadia. Thank you, Congressman. Yes, actually we have 
two programs at DNDO specifically addressing ensuring this 
expertise pipeline for the United States government at large. 
The first is the Academic Research Initiative, which you have 
heard Dr. Peterson speak about, and the second is a 
congressionally-mandated program where we look at the forensics 
expertise pipeline close coupled with the laboratories. There 
we are setting up these career paths for these young engineers 
and scientists so that we can retain that expertise and have it 
brought to bear on our mission.
    Mr. Cravaack. How deep do you reach down? What age groups 
are you talking about here?
    Dr. Gowadia. We go all the way to undergraduates, all the 
way to the graduate system, postdocs, even professors. We 
support their efforts.
    When we select our proposals, sir, we make sure that it is 
not just--it has technical merit but also we look at the 
coupling of, are they supporting enough students.
    Mr. Cravaack. Thank you.
    Dr. Peterson, it is my belief that we should reach even 
further down than that. I mean, we need to capture these kids 
early on and get them hooked on science, so to speak. What is 
your opinion on that?
    Dr. Peterson. Absolutely, and let me just say a little bit 
more about this, the program that we have in partnership with 
DNDO. The proposals that are submitted for this partnership are 
submitted to the National Science Foundation and are reviewed 
by the NSF merit review process, and it looks not only at the 
technical merit of the proposals but also at what we call 
broader impacts. That does specifically have to do with one's 
ability to articulate how important that research is in other 
areas, not just to the researchers that are actually conducting 
the work. And many faculty members and students in universities 
do that through interaction with pre-college opportunities, 
whether they be middle schools, elementary schools and so 
forth. So while we don't have a very specific program that is 
designed just explicitly to do that through this DNDO 
partnership, I would say that many of the research projects 
that we do support in this partnership have educational 
components that reach into the pre-college arena.
    Mr. Cravaack. I think it is vital. One of the things that I 
think that we need to do, and I agree with one of my colleagues 
that just spoke about this, is we have to have a renewed 
emphasis on STEM in our country. Dr. Peurrung, did you want to 
comment?
    Dr. Peurrung. I would just agree strongly with your 
comment, and the laboratories in general also have a role to 
play here. Battelle, that operates our laboratory, have played 
a critical role in standing up a STEM-based high school in 
Richland that we hope is a model and also in working to reform 
the science and math curriculum with the partnership of the 
State of Washington.
    Mr. Cravaack. I think it is vital. It is my hope that we 
continue to develop STEM-type of initiatives like the National 
Flight Academy down in Pensacola, Florida, spending time on a 
simulated aircraft carrier to get kids hooked on what it takes 
to fly an airplane or, you know, what it takes to navigate a 
ship or build a ship and the technologies associated with it.
    So I truly believe that capturing these kids early on where 
it is cool to be an engineer, it is cool to be a scientist and 
how much we value science and technology in this country. So I 
think it is one of the major--the kids hold the future, and we 
want to make sure they are part of that.
    Dr. Cavanagh, it seems like you want to say something.
    Dr. Cavanagh. NIST also is very much engaged in STEM. We 
have had roughly 175 students over each summer at NIST. We also 
have--in terms of reaching down, we also have a small program 
for middle-school teachers, science teachers to bring them and 
engage them with what is currently going on.
    Mr. Cravaack. You hit the nail on the head. Not only is it 
important that we educate, you know, our children but we also 
have to get those great teachers, those fantastic teachers that 
can turn some young kid interested into the mathematics and 
sciences of this great country of ours.
    So thank you very much for that comment, and it looks like 
my time is up. It was a good subject, though. Thank you for 
your comments, and I yield back.
    Chairman Hall. I thank you.
    The Chair recognizes Ms. Bonamici, the gentlelady from 
Oregon, for five minutes.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you all for your testimony and certainly for all the work that 
you do to protect our national security.
    Dr. Peurrung, you mentioned that the Pacific Northwest 
National Laboratory was the first to detect trace amounts of 
radioactive material over a U.S. territory after the Fukushima 
tragedy. As someone who represents part of the Pacific 
Northwest coast, I thank you for your work. I am asked on a 
regular basis if there is radioactive materials in the tsunami 
debris that is washing up on the shore, so let us work together 
on that.
    You also said in your testimony that approximately half of 
your business is centered on national security missions. Can 
you--I know there has been some talk about budget cuts. Can you 
talk a little bit about how your laboratory has been impacted, 
if at all, by recent cuts to the DHS Science and Technology 
Directorate?
    Dr. Peurrung. Well, the cuts to the DHS Science and 
Technology Directorate are part--you know, that is one of our 
many diverse markets--and certainly those cuts were 
significant. My goal as a steward of capabilities of the 
national lab is to manage through these fluctuations in funding 
in a way that preserves the maximum amount of critical 
capability. We have been largely able to do that. One of the 
main reasons for that is that the capabilities that are funded 
by DHS S&T would be things like chem and bio detection, cyber 
infrastructure protection, things like that, that are also--as 
I made the case in my testimony with any strong research 
program--funded by a range of other federal sponsors. So at the 
moment, there has really been what I would call moderate 
impact. As with many DOE labs, we have had some reduction in 
staffing, but really the capability preservation has been 
fairly successful to this point.
    That said, one more quick point. I think that the concern 
going forward is again about strategic stewardship and 
whether--in this era of budget cuts--whether there will be 
excessive focus on the threat of the day or short-term 
objectives.
    Ms. Bonamici. Thank you very much.
    And I know that many of the technologies that you all 
invest resources in will be used by state and local law 
enforcement and first responders, and there is of course a lot 
of variation. What New York City needs may be very different 
from what Cannon Beach, Oregon, needs. We had in Oregon a few 
years ago TOPOFF 4, that was a simulated detonation of a 
radiological dispersal device. Thousands of people participated 
in that exercise, and part of that goal was to figure out the 
communication needs with local responders.
    So knowing that you are all engaged with Department of 
Homeland Security Science and Technology Directorate in setting 
priorities, would you please talk about the current status of 
coordination with state and local stakeholders in determining 
that your research is lining up with their needs. Especially 
given the budget difficulties, how will you improve engagement 
with the state and local stakeholders to make sure that the 
research is aimed at meeting their threat detection needs and 
requirements? Thank you.
    Dr. Gowadia. Well, I can speak to the Domestic Nuclear 
Detection Office, not to the S&T Directorate. But for us, our 
state and local partners are absolutely critical to what we do. 
Again, I go back to that triad. I hate to beat my triad to 
death but we can't do what we do without their law enforcement 
skills and their willingness to accept our mission. So we work 
very closely with them on individual bases. We go out into the 
states and work all the way from the governor's office down 
into the highway patrol.
    I will give you a good example. Very early in DNDO's life, 
we had a small program called the Southeast Transportation 
Corridor Pilot, and Florida was one of the key partners there. 
We started working with them early on, and Florida, of their 
own accord, has now statewide rad-nuke detection enterprise. So 
we worked with them on training, the detection technologies 
they need. They have shaped the development of our new hand-
held system by actively engaging with us. Once they have alarms 
in the field, we support them with the alarm resolution. We 
have a joint analysis center that takes calls from the field 
and works with the National Laboratories to give them advice on 
how to respond to the alarm and deal with it.
    And one other unique thing we have is our red team. So, 
very often the state and local partners will call the red team 
in to test themselves in the operational world and keep 
building and growing. When DNDO started, I don't think half the 
country had rad-nuke detection systems, but today more than 
half of it does.
    Mr. Bonamici. Thank you very much. Anyone else in 
connection with local and state?
    Dr. Peurrung. Well, we consider them to be again critical 
mission users. We have an office in Seattle that is 
particularly engaged with us, Northwest Region First 
Responders, and in the interest of time, I will cut it there, 
but they are critical mission users that we must collaborate 
with.
    Mr. Bonamici. Thank you very much.
    My time is expired. Thank you, Mr. Chair.
    Chairman Hall. I thank you for yielding.
    Congressman Benishek of the State of Michigan for five 
minutes, sir.
    Mr. Benishek. Thank you, Mr. Chairman, and thanks, members 
of the panel. I really appreciate your being here. This is an 
interesting subject.
    I have a border district in northern Michigan, okay, and we 
have, you know, a bridge to Canada and we have a river that, 
you know, provides a border, and you know, I am concerned about 
the threat across--somebody taking a boat across the river. Is 
there any new technology, you know, other than just patrolling 
the river that is available, you know, on bridges or on rivers 
that would protect my district any better than just the patrol 
boat? Can you enlighten me about that?
    Dr. Gowadia. Well, sir, we have actually been working on 
the water detection at DNDO, and we found some promising 
capabilities for some standoff detection from a small boat to a 
small boat, so we are beginning to invest a little bit further 
in some of those technologies. What I will assure you is that 
all Coast Guard boarding parties have rad-nuke detection 
equipment, so when a Coast Guard vessel is available, they will 
bring that capability with them, so you already do have some 
coverage by way of your Coast Guard.
    Mr. Benishek. Let me ask another question. What is the 
most--what are the things that you are most worried about and 
what is your highest threat from your point of view? Any one of 
you if you have a comment but I am thinking of Dr. Gowadia 
since you are with, you know, the radiation agency.
    Mr. Gowadia. Right. So sir, we actually look at the global 
nuclear detection architecture rather holistically. We try to 
balance capability in all pathways so that there is something 
in the air domain, something in the land domain, and certainly 
something in the maritime domain. That is how we try to make 
sure that there is as much capability put in place for 
defensive measures against an adversary across the pathways.
    Mr. Benishek. But there is not like one single thing that 
you think is the most serious threat? I mean, in your own mind.
    Dr. Gowadia. Those are some thoughts. Perhaps we can take 
it to a closed room, sir.
    Mr. Benishek. All right. I understand.
    Dr. Peterson, you know, as a scientist myself, you know, I 
see that this whole process must be bringing in tons of data 
from, you know, all kinds of different sources, and it is of 
some concern to me, you know, how do you--what is your process 
for, you know, collating this data, making it translate into 
policy? I mean, what is the timeline for that and what is the 
process?
    Dr. Peterson. That is a great question, and it is 
applicable not only to this particular problem but to many 
other areas of research right now. The whole issue of so-called 
``big data'' and how do you deal with it, how do you best 
process it, mine it, store it, make it accessible not only to 
the researchers that collected it but to others. How do you 
make it one set of data as easily accessible as another set so 
that one can look at integrated sets. What I can say is that 
the NSF is investing a fairly significant amount of money. Big 
data is part of what we--you know, we love acronyms. There is a 
cross-foundational program called CIF21. And this year, NSF in 
partnership with other agencies launched a very specific focus 
on how best to handle these large amounts of data and do the 
analyses that we described. So I can't give you a specific 
example for this particular problem, but it is certainly an 
issue that we are trying to engage the academic community in 
researching.
    Mr. Benishek. Dr. Peurrung, do you have a thought?
    Dr. Peurrung. Yeah, I would--I think it is useful to break 
the challenge into three parts. I think they are all the 
subject of a great deal of ongoing research. The first is, we 
need new software tools that can make sense of the data, 
combine different types of data, handle data volumes and 
streams. The second is, we need computing architectures that 
can cope in a reasonable time frame with the mind-boggling 
amounts of data that are sometimes available. And the third is, 
you need analytical environments and visualization tools so 
that the human-computer interface gets to be more effective. So 
there is sort of in my mind three fundamental challenges there.
    Mr. Benishek. Do you have somebody scanning like private-
sector innovation and other government things? Do you have 
somebody doing that on a daily basis, or how does that work?
    Dr. Peurrung. This is one of those areas where we are 
already in various collaborations with industry around this.
    Mr. Benishek. At the end here, I have one more question. 
You know, this bridge I am talking about, you know, since 9/11, 
the traffic on it is so slow because of the risk and the 
commerce that we have in northern Michigan across that bridge 
has really changed due to the delays and everything. I 
understand the increased risk of the security but the commerce 
is definitely suffering for that, and is there ways that that 
can be, you know, expedited? Is there any thoughts on that? Is 
there any work on that trying to expedite the flow of traffic 
on our border crossings to, you know, aid commerce?
    Dr. Gowadia. Well, Congressman, I do know that in 
everything we deploy from a security perspective, we do keep in 
mind the flow of commerce and try very hard not to impact it. 
Not knowing exactly what is impacting that bridge, I feel at a 
little bit of a loss to help you with that. But we do consider 
the flow of commerce in all our studies.
    Mr. Benishek. All right. I guess my time is up. Thank you, 
Mr. Chairman.
    Chairman Hall. And I thank you.
    The Chair now recognizes Mr. Lujan, the gentleman from New 
Mexico.
    Mr. Lujan. Thank you, Mr. Chairman, and I appreciate the 
panel very much.
    The conversation about access to STEM for our students, I 
appreciate that conversation, and I think it is an area we need 
to highlight. Dr. Gowadia, I believe you talked about 40 
interns that you weren't able to bring on or that you had to 
let go because of budget cuts. We need to be cognizant of that. 
As we talk about the need for more scientists, physicists and 
experts in our fields, we have to understand that there is 
impacts with budgetary cuts. And with that, what has been the 
effect of the budget cuts? Have we lost research teams or 
infrastructure that will be difficult or expensive to 
reconstitute?
    Dr. Gowadia. Congressman, fortunately this just been the 
first year, and I do hope that the President's budget request--
where we tried to bring our scientists back to a healthy line--
is given favorable consideration. Fortunately, since this is 
the first year, we have done everything possible to either 
extend periods of performance, keep people going as long as 
possible, and it hasn't come down to infrastructure loss yet. 
But the cuts have impacted some of--for instance, we were not 
able to give any new grants out at all this year in the 
Academic Research Initiative. Of the 32 grants we had, we have 
held 13 at 100 percent funding, or high-priority ones, and the 
others are at about 50 to 60 percent funding, which is why we 
had to drop 40 undergraduates this year.
    Mr. Lujan. I appreciate that, and with emphasis on impact 
to infrastructure yet. I think we need to be very aware of that 
as well.
    I am going to ask a line of questions that maybe we don't 
talk about enough, and I am intrigued to find out how it 
impacts what we are looking at when it comes to detection of 
fissile material coming into the United States of those that 
may want to do harm to our homeland. I am sure that you studied 
behavior, organizational structure, trafficking patterns, areas 
of vulnerability to the United States. You highlighted an 
example of how you worked with Florida from the top down all 
the way to law enforcement on the ground, and we understand how 
these items may move.
    I am extremely concerned that we still can't stop narcotics 
from moving into the United States. It is clear that when the 
Department of Homeland Security was created, and we look back 
to 2004, the counter narcotics enforcement program was created 
in 2004 by the Intelligence Reform and Terrorism Prevention 
Act. I think we saw then and we know now that there are very 
much tied to one another. We constantly detect tunnels that are 
being closed. We know now that there are submarines that are 
not able to be detected by some of our radar capacity that are 
moving in large amounts and volumes of narcotics as well. What 
are we doing to take advantage or to employ technologies to 
better understand behavior where the United States has serious 
risks, serious threats--narcoterrorism cells that have been 
tied by the intelligence community as well as the Department of 
Homeland Security--to make sure we are stopping that activity 
so that way we can better police what is happening with areas 
of vulnerability with fissile material potentially entering the 
country? And I would open that to anyone.
    Dr. Gowadia. Again, sir, we look at the nuclear threat, 
again not just from the pure technology element, but 
intelligence-informed searches and surges. So in moving our 
architecture and our architectural strategy away from the 
notion of serendipitous encounter with larger detectors----
    Mr. Lujan. Well, if I may, I apologize but time is running 
out, I am not talking about serendipitous encounters associated 
with narcotic flows. When I look at DNDO, they work to 
determine gaps and vulnerabilities in the existing global 
nuclear detection architecture and formal recommendations and 
plans to develop enhanced architecture. DNDO also conducts, in 
accordance with a long-term research and development program to 
address, that complements what is happening with the Department 
of Energy. I think Pacific Northwest Laboratory highlights the 
work they do for DHS in addition to DOE and NNSA, as far as the 
intelligence community. From a science perspective, the NSTC 
Committee on Homeland and National Security provides guidance 
and direction to the NSTC to increase the overall effectiveness 
and productivity of federal R&D efforts in the area of science 
and technology related to homeland and national security. All I 
am suggesting is, if the stuff is going to move in, we know 
where the dollars are going to support these terrorist cells. 
It is not a big secret.
    And, you know, I have other questions pertaining to helium-
3. I am extremely concerned associated with the shortages that 
we have and how we can work with the National Labs, and we will 
submit those into the record. All I am asking is, as we talk 
with the experts and some of the smartest people that we have--
which many of them are right in front of us and those that you 
work with--talking about data, computing, the analytical 
responsibilities that we have as a country. There is a big 
threat to our Nation, and I am suggesting that if we can't stop 
this other stuff from entering the homeland, it only opens us 
to more danger with what could happen with these other cells 
looking to exploit these narco-terrorists, cartels from doing 
bad.
    And with that, Mr. Chairman, I appreciate the indulgence 
there and yield back my time. But I thank the panel very much.
    Chairman Hall. And I thank the gentleman. He asked good 
questions.
    I am honored to recognize Mr. Rohrabacher for five minutes, 
the gentleman from California.
    Mr. Rohrabacher. Well, thank you very much, Mr. Chairman, 
and I apologize. We have two hearings at exactly the same time. 
They are both very important, and so I am coming a little late 
to this one.
    I can't help but notice that when we talk about budget 
cuts, in fact, the Department of Homeland Security has had 
budget increases overall. I am not talking about necessarily 
your departments but there hasn't been a major budget cut. It 
has gone from $55 million to 59, is it billion or million? 
Billion. Fifty-five billion to $59 billion. And so when my 
colleagues mention the budget cuts even under this 
Administration, I don't--someone within the system then has 
prioritized. If you are receiving less money for technology 
development, they prioritize even in an expanding budget to 
decrease your own, or maybe what is happening is, Mr. Chairman, 
perhaps people are talking about a reduction in the increase, 
which is a game that we have heard quite often over the years.
    Mr. Chairman, when we expand our technological capabilities 
for defense, it is a double-edged sword, and the double-edged 
sword is, anything that can be used to protect us can also be 
used against us, and what are we doing to make sure that--and 
is there a way that we can actually increase our abilities 
technologically for surveillance, et cetera, without having 
that also being an alert to us that we have got to be more 
careful that our new capabilities aren't being used against 
honest people and to control the people rather than protect 
them? I am just opening that up to the panel for discussion. I 
guess the Department of Homeland Security.
    You know, I remember when I was a kid driving to the 
airport, jumping out of my car. I was late for the plane. I ran 
from the curb to the gate. The door of the plane was closing 
up. The stewardess said come on in. I got in. The plane took 
off and the stewardess took my ticket on the airplane. We can't 
do that anymore. Here we are, we are very protected now. I get 
patted down. I have to stand there with my hands in the air. We 
are doing all of these things to protect us but I have to tell 
you, my freedom as an individual American has been dramatically 
impacted to the negative because of what we have done to 
protect us against perhaps a worse negative, which would be a 
terrorist attack. And I might add, in that very same airport 
that I did that, there was a bomb that exploded, and later on 
as a reporter, I covered this bomb explosion and I saw where 
people's shoes were there and their legs had been blown off and 
their feet were still in their shoes.
    So this is--every comment and everything we do I guess has 
a flip side. What are we doing to make sure--what are your 
views on the technology development and how we are going to 
make sure it is being used for protection, for benefit rather 
than against our freedom?
    Dr. Peurrung. Well, a comment I would make to your question 
is simply that a researcher who works on threat detection 
technology should bear in mind the many technical challenges. 
They want faster measurements. They want more sensitivity, more 
background rejection abilities, see-through shielding, all of 
these things that we all know and understand but operational 
impact and operational suitability have to be high on that list 
of parameters that matter, and I believe that is recognized by 
the research community.
    Mr. Rohrabacher. Thank you very much. That was a very good 
answer.
    Mr. Chairman, I yield back.
    Chairman Hall. I thank you for yielding.
    The Chair now recognizes the gentleman from Illinois, Mr. 
Lipinski, for five minutes.
    Mr. Lipinski. Thank you, Mr. Chairman. Thank you for 
holding this hearing today.
    Chairman Hall. I hope Rohrabacher hasn't scared you to 
death.
    Mr. Lipinski. I have learned to ignore Mr. Rohrabacher 
sometimes.
    I think this is critically important. As Mr. Rohrabacher 
very clearly illustrated the dangers we are facing, I think it 
is easy for some to forget or not understand how important the 
R&D is to help keep us safe from the threats that we are facing 
and the ever-changing threats that we are facing.
    I just wanted to briefly first mention something, talk 
about something that has been brought up by a number of Members 
here today. I am also concerned about in recent years the cuts 
that DHS has had in its R&D budget, especially the 38 percent 
drop in funding between fiscal year 2010 and 2012 to the 
research, development, acquisitions and operations account. I 
know at Argonne National Lab outside Chicago, there are a 
number of research projects for the Department of Homeland 
Security that are going on, including risk analyses of risks to 
our critical infrastructure and the development of sensor 
technologies to help detect threats. These are the types of 
things I believe we need to be doing, and I hope that we in 
Congress make sure that we are providing the funding that is 
needed for this part of our defense from the threats that we 
are facing. I know a lot of my colleagues have mentioned that. 
I just wanted to echo that.
    The question I wanted to raise has to do with the social 
and behavioral sciences. As someone who was in that field, 
after being an engineer, I just--I understand how critically 
important social and behavioral sciences can be in terrorist 
threat detection. They help us understand what causes a person 
to turn to terrorism, who is likely to try to attack us, and by 
what means. For example, I mentioned Argonne National Lab 
before. I know that they are conducting research in Asian-based 
social network modeling to investigate possible terrorist 
networks. Now, due to our budget situation, however, and I 
think to some extent a misunderstanding by some of what the 
social and behavioral sciences can teach us, there has been a 
suggestion that we should cut back on funding for social 
science research. So I would like to hear from all of our 
witnesses, whoever wants to jump in on this, how your agencies 
and labs are using social and behavioral science research to 
aid in your efforts to improve terrorist threat detection. 
Whoever wants to start. Dr. Peterson?
    Dr. Peterson. Congressman Lipinski, thanks for giving me a 
chance to respond to that. I have already made comments about 
this before, but let me just reiterate the primary point, and 
that is, I think, that we cannot contribute substantially to 
this particular issue, and many other grand challenge issues 
that this country and the world faces, without close 
partnership among the physical sciences, engineering, the life 
sciences and the social, behavioral and economic sciences and 
education. And I think we have demonstrated how important the 
Foundation feels this is by the emphasis we are placing in many 
cross-foundational programs that require partnerships among the 
disciplines that I just described. This is a very good example 
of this particular issue with respect to threat detection 
technologies of how important it is to have the influence and 
the expertise of the social, behavioral and economic sciences.
    It is sometimes a challenge to engage these strongly 
interdisciplinary communities in focusing on these kinds of 
research problems. It is a challenge, first of all, to 
encourage individuals who may be focusing on more theoretical 
aspects to understand the richness of the basic research that 
still is involved in some of these more applied issues. It is a 
challenge to make sure that the language that the engineers and 
scientists use can be understood by the social scientists and 
vice versa. I think it is most important, again from the NSF 
perspective, it is a challenge, to make sure that the social, 
behavioral and economic science community themselves defines 
the important research agendas. It is really not up to the 
engineers and the scientists to tell them what we need from 
them. It is really up to the social, behavioral and economic 
science community to define the important research problems 
that we need to focus on.
    Mr. Lipinski. Anyone else want to--anything additional, Dr. 
Peurrung?
    Dr. Peurrung. Very quickly, I concur with your point that 
the behavioral and social sciences are of increasing 
importance. We have made investments in those at PNNL, and I 
was really struck with a biosurveillance program, I think 
Georgetown University led it, I believe, that used indicators 
of social disruption to do biosurveillance quite successfully. 
That is an example.
    Mr. Lipinski. Thank you.
    Anyone else?
    Dr. Gowadia. At DNDO, we are looking at universal adversary 
models and things like that to begin to understand and 
appreciate what an adversary would need, what intent, what 
capabilities, et cetera, and how that would drive our systems. 
So we do model the adversary. We certainly have very close 
coupled with the intelligence community. And with our 
partnership with NSF, we are looking to study deterrence theory 
and analysis also, again, bringing some of the coupling the 
soft sciences with our hard-science modeling.
    Mr. Lipinski. Thank you very much. I will yield back.
    Chairman Hall. The gentleman yields back. That I suppose 
ends our testimony and our questions. You have been great. We 
really thank you and for the things you didn't tell us that you 
say you could tell us, Dr. Gowadia. I think we would like to 
hear that sometime, and thank all four of you. Thank you very 
much.
    The Members of the Committee will have additional questions 
for any of you. We may send you some additional questions and 
ask you to respond to them in writing. The record will remain 
open for two weeks for additional comments from Members.
    And with that, we are adjourned.
    [Whereupon, at 11:43 a.m., the Committee was adjourned.]


                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

Responses by Dr. Richard Cavanagh

[GRAPHIC] [TIFF OMITTED] T5393.036

[GRAPHIC] [TIFF OMITTED] T5393.037

[GRAPHIC] [TIFF OMITTED] T5393.038

[GRAPHIC] [TIFF OMITTED] T5393.039

[GRAPHIC] [TIFF OMITTED] T5393.040

Responses by Dr. Huban Gowadia

[GRAPHIC] [TIFF OMITTED] T5393.041

[GRAPHIC] [TIFF OMITTED] T5393.042

[GRAPHIC] [TIFF OMITTED] T5393.043

[GRAPHIC] [TIFF OMITTED] T5393.044

[GRAPHIC] [TIFF OMITTED] T5393.045

[GRAPHIC] [TIFF OMITTED] T5393.046

[GRAPHIC] [TIFF OMITTED] T5393.047

[GRAPHIC] [TIFF OMITTED] T5393.048

[GRAPHIC] [TIFF OMITTED] T5393.049

[GRAPHIC] [TIFF OMITTED] T5393.050

Responses by Dr. Anthony Peurrung

[GRAPHIC] [TIFF OMITTED] T5393.052

[GRAPHIC] [TIFF OMITTED] T5393.053

[GRAPHIC] [TIFF OMITTED] T5393.054

[GRAPHIC] [TIFF OMITTED] T5393.055

[GRAPHIC] [TIFF OMITTED] T5393.056

[GRAPHIC] [TIFF OMITTED] T5393.057

[GRAPHIC] [TIFF OMITTED] T5393.058

Responses by Dr. Thomas Peterson

[GRAPHIC] [TIFF OMITTED] T5393.059

[GRAPHIC] [TIFF OMITTED] T5393.060

[GRAPHIC] [TIFF OMITTED] T5393.061

[GRAPHIC] [TIFF OMITTED] T5393.062

                              Appendix II

                              ----------                              


                   Additional Material for the Record


          Statement submitted by Representative Jerry Costello

    Mr. Chairman, thank you for holding today's hearing on federally-
funded research and development (R&D) threat detection technologies.
    After the attacks of September 11th, 2001, early threat detection 
efforts were increased to counter the growing list of terrorist threats 
and to prevent a variety of attacks on the U.S. As a result, federal 
investment in threat detection R&D became a necessary central component 
of these efforts.
    Basic, fundamental science-based research is critical to U.S. 
strategy for countering terrorism. Already we have seen significant 
advancements in these technologies that have strengthened our national 
security and kept America safe. Technologies such as large scale x-ray 
and gamma ray machines, and airport security technologies such as the 
Millimeter Wave technology that is helping to detect concealed weapons, 
explosives, and contraband at our nation's airports.
    These are just a few examples of how federal investments in 
science-based, innovative R&D have direct public benefits and why it is 
important we provide static funding support to ensure that future 
technologies reach the maturity necessary to protect against unknown 
threats.
    I am interested to hear from our witnesses regarding how we can 
ensure the federal government's threat detection efforts anticipate and 
respond to current and emerging dangers; are pertinent to the Nation's 
needs; and how the federal government is working with academia and the 
private sector on these efforts. I also want to know how federal 
agencies balance and prioritize long-term research activities among 
ever-changing terrorist threats.
    Thank you and I yield back the balance of my time.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
